TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Procedures Were Not Always Followed When
                      Resolving Alternative Minimum Tax
                                Discrepancies



                                           July 30, 2008

                                Reference Number: 2008-40-146




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:

 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 30, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Procedures Were Not Always Followed When
                             Resolving Alternative Minimum Tax Discrepancies
                             (Audit # 200740037)

 This report presents the results of our review of the Alternative Minimum Tax (AMT). The
 overall objective of this review was to determine whether the Internal Revenue Service (IRS)
 computer systems accurately identified and computed the AMT for taxpayers who might be
 liable, including both taxpayers who claimed the AMT and those who did not claim it but should
 have. This review was part of the Treasury Inspector General for Tax Administration Fiscal
 Year 2007 Annual Audit Plan and related to the Fiscal Year 2007 Major Management Challenge
 of addressing the complexity of the tax law.

 Impact on the Taxpayer
 The number of taxpayers affected by the AMT is expected to grow significantly in the next
 10 years if Congress does not continue to increase exemption amounts. AMT revenue increased
 from $16.7 billion for Tax Year 2005 to $21.4 billion for Tax Year 2006. Determining whether
 the AMT is owed is complex and time consuming, and the complexity causes taxpayer errors.
 Computer checks calculate what the AMT should be based on the information reported on the
 tax return. Tax returns with an AMT discrepancy are sent to IRS tax examiners for review. Our
 review identified that tax examiners did not always follow established procedures when
 resolving these discrepancies, which in some instances caused taxpayers to be assessed incorrect
 amounts.
                         Procedures Were Not Always Followed When Resolving
                               Alternative Minimum Tax Discrepancies




Synopsis
The AMT has its own definition of income subject to tax and its own tax rates. Taxpayers might
not know they are subject to the AMT until they compute their tax under the regular tax system.
The IRS recognizes the difficulty the AMT causes taxpayers both in determining whether the
AMT applies to them and, if applicable, in computing their specific AMT liabilities. The IRS
provides taxpayers with tools to determine whether they will have to prepare an Alternative
Minimum Tax–Individuals (Form 6251)1 to determine their AMT liabilities. These tools include
the Worksheet To See If You Should Fill In Form 6251 and the AMT Assistant on the IRS web
site (IRS.gov). We reviewed a random sample of 80 tax returns filed with a Form 6251. In
every case, the AMT Assistant correctly notified the taxpayer whether a Form 6251 should or
should not be completed.
Despite the tools provided to assist taxpayers, the complexity of the AMT causes errors in
determining and computing the tax. In Calendar Year 2006, computer checks identified about
                                        226,000 discrepancies between the AMT figures reported,
     Computer checks have been          or not reported, by the taxpayers and the amounts
         developed to identify          computed by the IRS. When a discrepancy exists, the tax
   discrepancies in the reporting of    return is sent to an IRS tax examiner, who reviews the
    the AMT. However, examiners         return and looks for obvious input errors or misplaced
   did not always correctly resolve
          AMT discrepancies.
                                        entries. The tax examiner determines where the difference
                                        occurred. If the examiner cannot resolve the issue, a
                                        notice is sent to the taxpayer asking for additional
information or informing the taxpayer that the AMT calculation was incorrect.
We reviewed a random sample of 52 tax returns filed in Calendar Year 2006 on which IRS
computers identified a discrepancy. For all 52 cases, computer checks correctly identified that
there was a discrepancy, and the cases were correctly sent to tax examiners for further review.
However, examiners did not follow procedures when resolving 11 (21 percent) of the 52 cases.
Of these 11 cases, 3 resulted in the examiners incorrectly computing the amount of tax owed.
Correct identification and resolution of discrepancies is essential to avoid further increasing the
burden for taxpayers subject to the AMT.

Recommendation
The Commissioner, Wage and Investment Division, should provide information to tax examiners
reiterating the importance of correctly resolving AMT discrepancies and highlighting specific
issues that could lead to incorrect resolution.


1
    Appendix V provides an example of Form 6251.
                                                                                                      2
                           Procedures Were Not Always Followed When Resolving
                                 Alternative Minimum Tax Discrepancies




Response
IRS management agreed with our recommendation. In the Submission Processing Division
employee annual training, the IRS Error Resolution function will emphasize the effect of the
AMT on taxpayers and the correct processing of returns to which it applies. In addition, during
the filing season,2 a reminder will be issued on the Submission Processing Division “Hot Topics”
web site referencing the complexity of resolving AMT discrepancies and highlighting specific
issues as necessary. Management’s complete response to the draft report is included as
Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




2
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                   3
                             Procedures Were Not Always Followed When Resolving
                                   Alternative Minimum Tax Discrepancies




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 6
          Computer Checks Identify Alternative Minimum Tax Discrepancies;
          However, Examiners Did Not Always Follow Established Procedures
          When Resolving the Discrepancies ..............................................................Page 6
                    Recommendation 1:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology .......................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Legislative History of the Alternative Minimum Tax .........Page 13
          Appendix V – Alternative Minimum Tax–Individuals (Form 6251) ...........Page 19
          Appendix VI – Management’s Response to the Draft Report ......................Page 21
      Procedures Were Not Always Followed When Resolving
            Alternative Minimum Tax Discrepancies




                 Abbreviations

AMT        Alternative Minimum Tax
IRS        Internal Revenue Service
TY         Tax Year
                        Procedures Were Not Always Followed When Resolving
                              Alternative Minimum Tax Discrepancies




                                          Background

In 1969, the Secretary of the Treasury reported that 155 individuals, each with an Adjusted Gross
Income1 of $200,000, paid no Federal income tax in 1966. Subsequently, Congress enacted the
minimum tax to ensure that taxpayers pay at least a minimum amount of tax. This minimum tax
was a precursor to the current Alternative Minimum Tax (AMT)2 that was created in 1978. The
AMT is a recalculated tax to reduce the ability of high-income individuals to avoid paying any
tax on their income. The AMT eliminates many deductions and credits allowed under the
regular tax system. In 1969, high-income taxpayers were defined as those who had income of at
least $200,000. If adjusted for inflation, this figure would be equal to more than $1.1 million
dollars today.
For Tax Year (TY) 2005, the AMT generated $16.7 billion in additional revenue. That figure
grew to $21.4 billion (28 percent) for TY 2006 and will continue to grow as the number of
taxpayers subject to the AMT increases.

The AMT continues to affect more taxpayers
In 1970, only 20,000 taxpayers were subject to the AMT. The number of taxpayers who paid the
AMT remained fairly steady from 1987 through 1992
and increased only slightly through 1997. However, the
number began to grow considerably in 2002 and is              Congress has temporarily
expected to continue to grow significantly in the next        increased AMT exemption
                                                           amounts to reduce the number
10 years. In recent years, Congress has temporarily       of taxpayers subject to the AMT.
increased the AMT exemption amount to help reduce the
number of taxpayers subject to the AMT. For example,
in 2006, the temporary exemption increase prevented more than 18 million taxpayers from
paying the AMT. Similar legislation was again passed in December 2007 for TY 2007.
Congress estimated that the temporary exemption increase would reduce the number of taxpayers
who would pay the AMT in TY 2007 from 23 million to 4 million.
Although the AMT was originally intended for taxpayers with high income, a growing number
of middle-income taxpayers are subject to the AMT. As shown in Figure 1, almost 46 percent of
those who paid the AMT for TY 2005 had Adjusted Gross Income of $200,000 or less.




1
  Adjusted Gross Income is income less certain deductions, such as the Health Savings Account, Individual
Retirement Account, and Education deductions, and/or expenses, such as Educator Expenses and Moving Expenses.
2
  Appendix IV provides the legislative history of the Alternative Minimum Tax.
                                                                                                      Page 1
                           Procedures Were Not Always Followed When Resolving
                                 Alternative Minimum Tax Discrepancies



        Figure 1: Number of Taxpayers Reporting AMT Liabilities for TY 2005

                    Adjusted Gross                   Number of                     Percentage of
                       Income                        Taxpayers                      Taxpayers
            Less than $0                                5,416                          0.1%
            $0 to $100,000                             352,243                         8.9%
            $100,001 to $200,000                      1,443,404                        36.5%
            $200,001 to $300,000                      1,204,896                        30.5%
            $300,001 to $400,000                       468,924                         11.9%
            $400,001 to $500,000                       214,022                         5.4%
            $500,001 to $1,000,000                     193,782                         4.9%
            More than $1,000,000                        69,809                         1.8%
            Total                                     3,952,496                       100.0%
           Source: Analysis of the Internal Revenue Service (IRS) Individual Return Transaction File3 for
           TY 2005.

Figure 2 shows the exemption amounts for single taxpayers and married taxpayers filing joint
returns for TYs 1993 through 2007. The exemption amounts are based on the taxpayers’ filing
status and are subtracted from the taxpayers’ Alternative Minimum Taxable Income. They
reduce the amount of income that is used to determine the AMT.
          Figure 2: Congressional Increases to the AMT Exemption Amounts

                                                                       Exemption Amount for
                                       Exemption Amount for           Married Taxpayers Filing
                    Tax Year             Single Taxpayers                      Jointly
                    1993-2000                   $33,750                         $45,000
                    2001-2002                   $35,750                         $49,000
                    2003-2005                   $40,250                         $58,000
                      2006                      $42,500                         $62,550
                      2007                      $44,350                         $66,250
             Source: Alternative Minimum Tax–Individuals (Form 6251) for TYs 1993 through 2007.




3
  The Individual Return Transaction File contains data from the Individual Master File. The Individual Master File
is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                            Page 2
                                        Procedures Were Not Always Followed When Resolving
                                              Alternative Minimum Tax Discrepancies



Figure 3 shows the trends in the number of taxpayers subject to the AMT as well as the number
of taxpayers who could be affected if Congress does not continue to increase exemption
amounts.
                                                      Figure 3: Growth in the AMT

                    35,000,000
                                                             The decline between 2010 and 2011 is a result of
                                                             the expiration of the Economic Growth and Tax
                    30,000,000                               Relief Reconciliation Act of 2001. This will raise
                                                             regular income tax rates causing fewer taxpayers
                    25,000,000                               to be subject to the AMT.
        Taxpayers




                    20,000,000


                    15,000,000


                    10,000,000


                     5,000,000


                           -
                                 1987   1989   1991   1993   1995     1997    1999     2001    2003    2005       2007   2009   2011   2013   2015   2017
                                                                                     Calendar Year
                                          Projection if Congress Does Not Continue to Increase AMT Exemption
                                          Projection if Congress Continues to Increase AMT Exemption
                                          Actual

    Source: United States Joint Committee on Taxation and our analysis of IRS data.4

If Congress does not continue to pass legislation to increase AMT exemption amounts, the rates
will revert to levels established by the Omnibus Reconciliation Act of 1993.5 These amounts are
$33,750 for single taxpayers and $45,000 for married taxpayers. For TY 2007, legislation was
not passed until December 2007. Because of the late passage of this legislation, 13.5 million
taxpayers who used 5 AMT-related tax forms or schedules had to wait until February 11, 2008,
to file their returns. Delaying the processing of these returns allowed the IRS enough time to
update and test its systems to accommodate the changes to the forms without major disruptions
to other return processing operations. We are evaluating the effectiveness of the IRS’
implementation of the AMT legislation in our review of the 2008 individual filing season.6




4
  Economic Growth and Tax Relief Reconciliation Act of 2001, Pub. L. 107-16, 115 Stat. 38.
5
  Pub. L. No. 103-66, Title XII, Sec. 12001, 107 Stat. 413.
6
  The period from January through mid-April when most individual income tax returns are filed.
                                                                                                                                                 Page 3
                         Procedures Were Not Always Followed When Resolving
                               Alternative Minimum Tax Discrepancies



Determining whether the AMT is owed is complex and time consuming
The AMT has its own definition of income subject to tax and its own tax rates. Taxpayers might
not know they are subject to the AMT until they compute their tax under the regular tax system.
Instructions for the U.S. Individual Income Tax Return (Form 1040) direct taxpayers to fill out
the Worksheet To See If You Should Fill In Form 62517 or to use the AMT Assistant (the
Assistant) on the IRS web site (IRS.gov) to determine whether they will have to prepare
Form 6251 to determine their AMT liabilities. Form 6251 is composed of three parts:
•     Part I – contains 28 lines and is used to compute a taxpayer’s Alternative Minimum Taxable
      Income. This Part requires a taxpayer to add certain income-related items back to his or her
      Adjusted Gross Income to arrive at Alternative Minimum Taxable Income.
•     Part II – contains seven lines and is used to compute the AMT.
•     Part III – contains 20 lines and is used to compute the AMT using the maximum capital gains
      rates.
After completing Form 6251, the taxpayer transfers the AMT amount back to his or her
Form 1040 and completes the remainder of the tax return. Approximately 8 million taxpayers
filed a Form 6251 for TY 2005. Approximately 6.7 million (84 percent) of these taxpayers had
their returns prepared by paid preparers.
The complexity of the AMT causes errors in determining and computing the AMT. The IRS
developed computer checks to identify taxpayer discrepancies when reporting the AMT. These
checks are performed during the processing of the tax return and calculate what the AMT should
be based on the information reported on the tax return. The checks identify the following types
of tax returns:
•     A tax return for which an AMT liability appears to exist but the taxpayer has not claimed the
      AMT.
•     A tax return for which the amount of the AMT claimed by the taxpayer differs from the
      amount computed by the IRS.
When a discrepancy exists, the tax return is identified for further review by an IRS tax examiner,
who reviews the return and looks for obvious input errors or misplaced entries. If there are not
obvious errors, the tax examiner determines where the difference occurred. If the examiner
cannot resolve the issue, a notice is sent to the taxpayer asking for additional information or
informing the taxpayer that the AMT calculation was incorrect.
This review was performed at the IRS Wage and Investment Division Headquarters in
Atlanta, Georgia, in the Office of Customer Account Services, Submission Processing Division,


7
    Appendix V provides an example of Form 6251.
                                                                                             Page 4
                     Procedures Were Not Always Followed When Resolving
                           Alternative Minimum Tax Discrepancies



during the period February through November 2007. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our finding and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 5
                     Procedures Were Not Always Followed When Resolving
                           Alternative Minimum Tax Discrepancies




                                 Results of Review

Computer Checks Identify Alternative Minimum Tax Discrepancies;
However, Examiners Did Not Always Follow Established Procedures
When Resolving the Discrepancies
The IRS recognizes the difficulty the AMT causes taxpayers both in determining whether the
AMT applies to them and, if applicable, in computing their specific AMT liabilities. The IRS
has taken steps to help taxpayers better understand
their responsibility for paying the AMT. IRS
instructions for the U.S. Individual Income Tax Return    The IRS provides tools to assist
(Form 1040) direct taxpayers to fill out a Worksheet       taxpayers in determining if the
                                                             AMT applies to them and, if
To See If You Should Fill In Form 6251 to determine if
                                                            applicable, in computing their
they will have to prepare a Form 6251 to calculate             specific AMT liabilities.
their AMT liabilities.
The IRS also provides the Assistant, which is an
electronic version of the AMT worksheet. Taxpayers enter information from their returns, and
the Assistant will inform them as to whether they need to complete Form 6251 to determine their
tax liabilities. We reviewed a random sample of 80 tax returns filed with a Form 6251. In every
case, the Assistant correctly notified the taxpayer whether a Form 6251 should or should not be
completed.

Computer checks identify AMT discrepancies
The complexity of the AMT causes taxpayer errors in determining and computing tax liabilities.
IRS computer programs calculate what the AMT should be based on the information reported on
the tax return. The calculated amount is then compared to the AMT reported by the taxpayer.
During Calendar Year 2006, the IRS identified 1) approximately 61,000 tax returns on
which taxpayers appeared to owe the AMT but did not claim it on their tax returns and
2) approximately 165,000 tax returns that had discrepancies between the amount of AMT shown
by the taxpayer and what was computed by the IRS.
We reviewed a random sample of 52 tax returns filed in Calendar Year 2006 with a difference
between the AMT figure provided by the taxpayer and that computed by the IRS. Computer
checks correctly identified that there was a discrepancy for all 52 cases, and the cases were sent
to IRS tax examiners for further review.



                                                                                             Page 6
                     Procedures Were Not Always Followed When Resolving
                           Alternative Minimum Tax Discrepancies



Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should provide
information to tax examiners reiterating the importance of correctly resolving AMT
discrepancies and highlighting specific issues that could lead to incorrect resolution.
       Management’s Response: IRS management agreed with this recommendation. In
       the Submission Processing Division employee annual training, the IRS Error Resolution
       function will emphasize the effect of the AMT on taxpayers and the correct processing of
       returns to which it applies. In addition, during the filing season, a reminder will be issued
       on the Submission Processing Division “Hot Topics” web site referencing the complexity
       of resolving AMT discrepancies and highlighting specific issues as necessary.




                                                                                             Page 8
                         Procedures Were Not Always Followed When Resolving
                               Alternative Minimum Tax Discrepancies



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS computer systems accurately identified
and computed the AMT for taxpayers who might be liable, including both taxpayers who
claimed the AMT and those who did not claim it but should have. Our review included an
analysis of the demographics of those taxpayers affected by the AMT. To accomplish this
objective, we:
I.      Evaluated the information that taxpayers can use to determine their need to consider
        whether they might owe the AMT.
        A. Reviewed the U.S. Individual Income Tax Return (Form 1040) and related
           instructions and Your Federal Income Tax For Individuals (Publication 17) for
           references to AMT issues. We also reviewed the Alternative Minimum
           Tax–Individuals (Form 6251) and related instructions for clarity and reviewed draft
           publications covering the AMT. In addition, we reviewed the AMT Assistant on
           IRS.gov for clarity and ease of use.
II.     Identified the IRS processing controls in place to identify and correct returns that are
        claiming the AMT or should be claiming the AMT.
        A. Reviewed the Internal Revenue Manual to determine the information from the
           Form 6251 that was transcribed for paper returns and was available in the computer
           system for both paper and electronic returns. We reviewed the Internal Revenue
           Manual processing procedures related to the AMT for the IRS Code and Edit and
           Error Resolution functions.
        B. Reviewed any Examination function referral procedures to determine how a return
           gets to the Examination function.
        C. Reviewed the computer programming to determine how the IRS calculated potential
           AMT.
III.    Evaluated the processing controls by reviewing a sample of tax returns that had the AMT
        assessed.
        A. Extracted all TY 2005 Forms 6251 filed in Calendar Year 2006 from the IRS Return
           Transaction File1 in the Treasury Inspector General for Tax Administration Data


1
  The Individual Return Transaction File contains data from the Individual Master File. The Individual Master File
is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                           Page 9
                         Procedures Were Not Always Followed When Resolving
                               Alternative Minimum Tax Discrepancies



             Center Warehouse2 and separated the records into 2 files: cases for which the AMT
             was more than $0 and cases for which the AMT equaled $0. Data were validated to
             the Integrated Data Retrieval System.
         B. Randomly sampled 52 of the 7,583 tax returns processed at all Submission Processing
            sites for which the AMT was more than $0 and there was a significant3 difference
            between the AMT calculated by the IRS and the AMT calculated by the taxpayer. A
            random number generator was used to ensure that tax returns had an equal chance of
            being selected. We reviewed the sample cases to determine whether IRS processing
            procedures were correctly followed. We determined that a statistically valid sample
            was not needed based on our review of these 52 returns.
IV.      Determined the number of taxpayers who filed Form 6251 but were not required to pay
         the AMT (AMT = $0).
         A. Randomly sampled 28 of the 4,016,823 returns that had AMT = $0 from the data
            extract in Step III.A. A random number generator was used to ensure that tax returns
            had an equal chance of being selected. We reviewed the sampled cases to determine
            whether the AMT Assistant on IRS.gov would mislead the taxpayer into thinking the
            AMT could be owed. We determined a statistically valid sample was not needed
            based on the results of our review of these 28 returns.




2
  A Treasury Inspector General for Tax Administration repository of IRS critical historical data. The mission of
the Warehouse is to provide data and data access services; centralize storage, security, and administration of files;
and develop uniform and user-friendly interfaces for users to access data.
3
  For the purpose of our review, we considered a difference of $100 between the AMT calculated by the IRS and the
AMT calculated by the taxpayer to be significant.
                                                                                                            Page 10
                   Procedures Were Not Always Followed When Resolving
                         Alternative Minimum Tax Discrepancies



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Russell P. Martin, Director
Deann L. Baiza, Audit Manager
Sharla J. Robinson, Lead Auditor
Kathleen A. Hughes, Senior Auditor
Glory Jampetero, Senior Auditor
Ryan C. Powderly, Intern




                                                                                   Page 11
                   Procedures Were Not Always Followed When Resolving
                         Alternative Minimum Tax Discrepancies



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Senior Operations Advisor, Wage and Investment Division SE:W:S:PA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 12
                        Procedures Were Not Always Followed When Resolving
                              Alternative Minimum Tax Discrepancies



                                                                                              Appendix IV

    Legislative History of the Alternative Minimum Tax

Congress enacted the minimum tax in 1969 after the Secretary of the Treasury reported that
155 individuals, each with an Adjusted Gross Income1 of $200,000, paid no Federal income tax
in 1966. In 1978, Congress enacted a minimum tax that resembles the current AMT. The 1978
tax was payable in addition to all other tax liabilities to the extent that it exceeded the
individual’s regular tax liability. It was imposed at a flat rate of 20 percent on Alternative
Minimum Taxable Income in excess of an exemption amount.2
Congress repealed the minimum tax in 1982 and expanded the AMT to include the tax
preferences from the minimum tax. The provisions enacted in 1982 are the foundation for
today’s AMT. The AMT has been amended a number of times. The following table describes
the legislative action for the original minimum tax and the current AMT.
                      Married
    Legislation        Filing          Single         Tax Rates                        Comments
                      Jointly        Exemption
                     Exemption
Tax Reform            $30,000         $30,000            10%         Introduced the “add-on” minimum
Act of 1969             plus            plus                         income tax of 10 percent of the amount
                     regular tax     regular tax                     of preferences3 in excess of an exemption
(P.L. 91-172)
                                                                     of $30,000 for both joint and single
                                                                     filers. The main preference item was
                                                                     capital gains, but preferences also
                                                                     included stock options, depreciation, and
                                                                     depletion allowances.




1
  Adjusted Gross Income is income less certain deductions, such as Health Savings Account, Individual Retirement
Account, and Education deductions, and/or expenses, such as Educator Expenses and Moving Expenses.
2
  Present Law and Issues Relating to the Individual AMT, Joint Committee on Taxation (JCX-3-98, dated
February 2, 2008).
3
  Certain income-related items that must be added back to Adjusted Gross Income to arrive at an Alternative
Minimum Taxable Income.
                                                                                                        Page 13
                    Procedures Were Not Always Followed When Resolving
                          Alternative Minimum Tax Discrepancies



                   Married
  Legislation       Filing        Single      Tax Rates                  Comments
                   Jointly      Exemption
                  Exemption
Excise, Estate,   No change     No change     No change Allowed deduction of the “unused
and Gift Tax                                            regular tax carryover” from the base for
Adjustment                                              the minimum tax.
Act of 1970
(P.L. 91-614)
Tax Reform        Greater of    Greater of      15%       Raised the rate of minimum income tax
Act of 1976       $10,000 or    $10,000 or                to 15 percent and lowered the exemption
                     ½ of          ½ of                   to the greater of $10,000 or one-half of
(P.L. 94-455)
                  regular tax   regular tax               regular taxes. This Act also added
                                                          certain itemized deductions as
                                                          preferences.
Tax Reduction     No change     No change     No change Reduced the minimum tax preference for
and                                                     intangible costs of drilling oil and gas
Simplification                                          wells.
Act of 1977
(P.L. 95-30)
Revenue Act of     $20,000       $20,000       10% on     Introduced the AMT alongside the
1978                                             $0 -     minimum income tax and moved certain
                                               $40,000    itemized deductions and capital gains to
(P.L. 95-600)
                                                          the AMT. The AMT had graduated rates
                                               20% on
                                                          of 10 percent, 20 percent, and 25 percent
                                              $40,001 -
                                                          and an exemption of $20,000.
                                               $80,000
                                               25% on
                                              more than
                                               $80,000
Economic          No change     No change      10% on     Eliminated the 25 percent AMT rate to
Recovery Tax                                     $0 -     correspond with reductions in rates of
Act of 1981                                    $40,000    regular income tax.
(P.L. 97-34)                                   20% on
                                              more than
                                               $40,000


                                                                                        Page 14
                             Procedures Were Not Always Followed When Resolving
                                   Alternative Minimum Tax Discrepancies



                          Married
     Legislation           Filing            Single          Tax Rates                           Comments
                          Jointly          Exemption
                         Exemption
Tax Equity and             $40,000           $30,000            20%          Repealed the “add-on” minimum tax
Fiscal                                                                       and made the AMT rate a flat 20 percent
Responsibility                                                               of AMT income after exemptions of
Act of 1982                                                                  $30,000 for single filers and $40,000 for
                                                                             jointly filed returns. The preferences
(P.L. 97-248)
                                                                             from the add-on tax were moved to the
                                                                             AMT.
Deficit                  No change         No change        No change Made minor changes concerning the
Reduction Act                                                         Investment Tax Credit, intangible
of 1984                                                               drilling costs, and other items.
(P.L. 98-369)
Tax Reform               No change         No change            21%          Raised the AMT rate to 21 percent, made
Act of 1986                                                                  high-income taxpayers subject to
                                                                             phaseout of exemptions, increased the
(P.L. 99-514)
                                                                             number of tax preferences by adding
                                                                             preferences for interest on private
                                                                             activity bonds and for appreciation on
                                                                             charitable contributions. The AMT base
                                                                             was expanded to include deferral items,4
                                                                             and an AMT credit for a prior year AMT
                                                                             liability due to deferral items was
                                                                             introduced. Net operating losses were
                                                                             allowed to offset only 90 percent of
                                                                             Alternative Minimum Taxable Income,
                                                                             and the Foreign Tax Credit was not
                                                                             allowed to be used to reduce the tentative
                                                                             minimum tax by more than 90 percent.
Revenue Act of           No change         No change        No change Made technical corrections related to the
1986                                                                  Tax Reform Act of 1986.
(P.L. 100-203)



4
    A deferral item is an amount for which the asset or liability is not realized until a future date.
                                                                                                            Page 15
                   Procedures Were Not Always Followed When Resolving
                         Alternative Minimum Tax Discrepancies



                  Married
  Legislation      Filing      Single    Tax Rates                   Comments
                  Jointly    Exemption
                 Exemption
Technical and    No change   No change   No change Made technical corrections related to the
Miscellaneous                                      Tax Reform Act of 1986.
Revenue Act of
1988
(P.L. 100-647)
Omnibus          No change   No change   No change Made further technical amendments.
Budget
Reconciliation
Act of 1989
(P.L. 101-239)
Omnibus          No change   No change     24%       Raised the AMT rate to 24 percent.
Budget
Reconciliation
Act of 1990
(P.L. 101-508)
Energy Policy    No change   No change   No change Made changes regarding intangible costs
Act of 1992                                        of drilling oil and gas wells.
(P.L. 102-486)
Omnibus           $45,000     $33,750     26% on     Introduced graduated AMT rates of
Reconciliation                             $0 -      26 percent and 28 percent. This Act also
Act of 1993                              $175,000    increased the exemption to $33,750 for
                                                     single filers and $45,000 for jointly filed
(P.L. 103-66)                             28% on
                                                     returns, changed rules about gains on
                                         more than
                                                     stock of small businesses, and eliminated
                                         $175,000
                                                     the appreciated charitable property
                                                     deduction preference.




                                                                                    Page 16
                    Procedures Were Not Always Followed When Resolving
                          Alternative Minimum Tax Discrepancies



                  Married
  Legislation      Filing       Single    Tax Rates                 Comments
                  Jointly     Exemption
                 Exemption
Taxpayer         No change    No change   No change Made changes regarding depreciation
Relief Act of                                       and farmers’ installment sales, and
1997                                                repealed the requirement that alternative
                                                    depreciation periods be used in
(P.L. 105-34)
                                                    computing the deduction for Accelerated
                                                    Cost Recovery System depreciation.
Tax Technical    No change    No change   No change Adjusted the AMT for new capital gains
Corrections                                         rates.
Act of 1998
(P.L. 105-206)
Tax Relief       No change    No change   No change Allowed use of all personal
Extension Act                                       nonrefundable credits against the AMT
of 1999                                             through 2001.
(P.L. 106-170)
Economic         $49,000 for $35,750 for No change Temporarily increased the exemption
Growth and       years 2001- years 2001-           amount to $35,750 for single filers and
Tax Relief          2004        2004               $49,000 for jointly filed returns. This
Reconciliation                                     Act allowed use of the child, adoption,
                 $45,000 for $33,750 for
Act of 2001                                        and Individual Retirement Account
                  2005 and    2005 and
                                                   credits against the AMT liability through
(P.L. 107-16)      beyond      beyond
                                                   2010.

Job Creation     No change    No change   No change Allowed all personal nonrefundable
and Worker                                          credits to be used against the AMT
Assistance Act                                      liability through 2003.
of 2002
(P.L.107-147)




                                                                                  Page 17
                     Procedures Were Not Always Followed When Resolving
                           Alternative Minimum Tax Discrepancies



                   Married
  Legislation       Filing       Single     Tax Rates                  Comments
                   Jointly     Exemption
                  Exemption
Jobs and          $58,000 for $40,250 for No change Temporarily increased the exemption
Growth Tax        years 2003- years 2003-           amount to $40,250 for single filers and
Relief               2004        2004               $58,000 for jointly filed returns. This
Reconciliation                                      Act conformed the AMT rates for
                  $45,000 for $33,750 for
Act of 2003                                         dividends to the lower rates adopted for
                   2005 and    2005 and
                                                    the regular tax.
(P.L. 108-27)       beyond      beyond
Working           No change    No change    No change Extended the temporary increase in the
Families Tax                                          exemption amounts made by the Jobs
Relief Act of                                         and Growth Tax Relief Reconciliation
2004                                                  Act of 2003.
(P.L. 108-311)


American Jobs     No change    No change    No change Allowed the Foreign Tax Credit to offset
Creation Act of                                       the entire tentative minimum tax
2004                                                  (repealed the 90 percent limitation on use
                                                      of Foreign Tax Credits).
(P.L. 108-357)


Tax Relief         $62,550      $42,500     No change Increased the exemption amount to
Extension          for 2006     for 2006              $42,500 for single filers and $62,550 for
Reconciliation                                        jointly filed returns.
                  $45,000 for $33,750 for
Act of 2005
                   2007 and    2007 and
(P.L. 109-222)      beyond      beyond
Tax Increase      $66,250 for $44,350 for No change Increased the exemption amount to
Prevention Act       2007        2007               $44,350 for single filers and $66,250 for
of 2007                                             jointly filed returns.
                  $45,000 for $33,750 for
(P.L. 110-166)     2007 and    2007 and
                    beyond      beyond




                                                                                     Page 18
         Procedures Were Not Always Followed When Resolving
               Alternative Minimum Tax Discrepancies



                                                    Appendix V

Alternative Minimum Tax–Individuals (Form 6251)




                                                          Page 19
Procedures Were Not Always Followed When Resolving
      Alternative Minimum Tax Discrepancies




                                                 Page 20
      Procedures Were Not Always Followed When Resolving
            Alternative Minimum Tax Discrepancies



                                                Appendix VI

Management’s Response to the Draft Report




                                                       Page 21
Procedures Were Not Always Followed When Resolving
      Alternative Minimum Tax Discrepancies




                                                 Page 22
Procedures Were Not Always Followed When Resolving
      Alternative Minimum Tax Discrepancies




                                                 Page 23
